UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1300
JEAN COULTER, Appellant
v.
GERRI VOLCHKO PAULISICK; JOSEPH R.
PAULISICK
On Appeal from the United States District Court for
the Western District of Pennsylvania (D.C. Civil
Action No. 2-15-cv-00937) District Judge: Honorable
Joy Flowers Conti
SUR PETITION FOR REHEARING
BEFORE: SMITH, Chief Judge, and AMBRO,
CHAGARES, JORDAN, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, and
GREENBERG, Circuit Judges
The petition for rehearing filed by appellant,
Jean Coulter, in the above captioned matter having
been submitted to the judges who participated in the
decision of this Court and to all the other available
circuit judges of the Court in regular active service,
and no judge who concurred in the decision having
asked for rehearing, and a majority of the circuit
judges of the circuit in regular active service who are
not disqualified not having voted for rehearing by the
court en banc, the petition for rehearing is denied.
Judge Greenberg’s vote is limited to denying
rehearing before the original panel.
BY THE COURT:
la.

s/ Morton I. Greenberg
Circuit Judge
DATED: July 23, 2019
Lmr/cc: Jean Coulter
Rhonda J. Sudina
JEAN COULTER, Appellant,
v.
GERRI VOLCHKO PAULISICK; JOSEPH R.
PAULISICK.
No. 19-1300.
United States Court of Appeals, Third Circuit.
Submitted Pursuant to Third Circuit LAR 34.1(a)
June 26, 2019.
Opinion filed: June 28, 2019.
On Appeal from the United States District Court for
the Western District of Pennsylvania, (D.C. Civil
Action No. 2-15-cv-00937), District Judge: Honorable
Joy Flowers Conti.
Before: CHAGARES, BIBAS, and GREENBERG,
Circuit Judges.
NOT PRECEDENTIAL
OPINIONS]
PER CURIAM.
Jean Coulter appeals the District Court's
dismissal of her action for lack of subject matter
jurisdiction. We will affirm the District Court's
judgment for the following reasons.
On July 20, 2015, Coulter filed this suit against
Appellees Gerri Volchko Paulisick and Joseph R.
Paulisick ("the Paulisicks"), alleging that a fallen
tree branch from the Paulisicks' property caused
2a.

damage to Coulter's adjacent property located in
Butler, Pennsylvania. Coulter asserted that she was
a New Jersey citizen and invoked jurisdiction under
28 U.S.C. § 1332 (diversity of citizenship), [l]
Seven days later, on July 27, 2015, Coulter filed a
separate suit against her brother, James Coulter, in
the Western District of Pennsylvania ("Coulter v.
Coulter"), alleging various causes of action relating
to the same piece of property in Butler,
Pennsylvania. As she did in the current case,
Coulter asserted diversity of citizenship as the basis
for the court's jurisdiction. District Judge Bissoon
initially found Coulter to have established her
domicile in Pennsylvania, [2] and issued an order to
show cause, directing Coulter to demonstrate that
she had actually established a new domicile in New
Jersey. After reviewing Coulter's response, Judge
Bissoon ultimately concluded that Coulter had not
met her burden to show that she had, in fact,
established a new domicile in New Jersey, and
dismissed the case for lack of subject matter
jurisdiction. Coulter appealed, and this Court
affirmed Judge Bissoon's determination. See Coulter,
715 F. App'x at 160.
Meanwhile, in the current case, the Paulisicks
eventually filed a motion to dismiss and strike this
action. The District Court, in considering the
Paulisicks' motion and several other motions filed by
Coulter, first addressed whether it had subject
matter jurisdiction to hear the case. The District
Court looked to Judge Bissoon's finding that Coulter
was still a citizen of Pennsylvania on July 27, 2015,
and noted this Court's affirmance of that
determination. The District Court then concluded
that the doctrine of issue preclusion bound the court
3a.

to that determination, and dismissed the case for
lack of subject matter jurisdiction. Coulter filed a
motion seeking reconsideration, which included
several attachments that she purported proved her
domicile was New Jersey. The District Court found
that Coulter provided no new evidence of her
citizenship and denied the motion. Coulter timely
appealed.
We have appellate jurisdiction over the District
Court's orders, dismissing the action and denying
reconsideration, pursuant to 28 U.S.C. § 1291. A
district court's determination regarding domicile for
purposes of subject matter jurisdiction is a mixed
question of fact and law. McCann v. Newman
Irrevocable Tr„ 458 F.3d 281, 286 (3d Cir. 2006).
Accordingly, we review the court's factual
determinations for clear error, and the court's
application of legal principles and conclusions of law
de novo. Washington v. Hovensa LLC, 652 F.3d 340,
341 (3d Cir. 2011). As to the clear error standard,
"our sole function is to review the record to
determine whether the findings of the District Court
were clearly erroneous, i.e., whether we are left with
a definite and firm conviction that a mistake has
been committed." McCann, 458 F.3d at 286 (internal
quotation marks omitted).
[siclAt issue is whether Coulter was domiciled in
New Jersey at the time she filed her action on July
20, 2015. On appeal, Coulter essentially challenges
the District Court's determination on a legal basis
and a factual basis. She argues that the District
Court's use of the doctrine of issue preclusion [3] as a
basis for concluding she was a Pennsylvania resident
was legal error. She argues that the District Court's
reliance on Judge Bissoon's determination in Coulter
4a.

v. Coulter was improper because that case was filed
after the instant case, and the determination of
domicile for purposes of subject matter jurisdiction
must occur on the date the action was filed. See
Washington, 652 F.3d at 344 (noting that, in deciding
whether diversity jurisdiction exists, a court must
determine the parties' citizenship based on relevant
facts at the time the complaint was filed). Thus,
because her domicile could have conceivably changed
in that time'span of a week, she maintains that the
District Court committed an error of law by using the
doctrine of issue preclusion. Coulter's related factual
challenge essentially argues that the facts
determining her domicile changed between the filing
of her action against the Paulisicks on July 20, and
the following week when she filed her action against
her brother on July 27.
To the extent that Coulter avers that the District
Court committed a legal error by using the doctrine
of issue preclusion as a basis for determining subject
matter jurisdiction, she is mistaken. See Park Lake
Res. LLC v. U.S. Dep't of Agric., 378 F.3d 1132, 1136
(10th Cir. 2004) (noting "dismissals for lack of
jurisdiction preclude relitigation of the issues
determined in ruling on the jurisdiction question"
(internal quotation marks omitted)). Furthermore,
Coulter misunderstands the District Court's use of
issue preclusion in this case. As we noted on appeal
in Coulter v. Coulter, Judge Bissoon took judicial
notice of Coulter's residence in Pennsylvania based
on Coulter's own representations in prior litigation
beginning in 2012. See Coulter, 715 F. App'x at 160.
This, as we further noted, gave rise to a rebuttable
presumption of Coulter's domicile as being
Pennsylvania. See id.! see also McCann, 458 F.3d at
5a.

286-87 (noting "[a] domicile once acquired is
presumed to continue until it is shown to have been
changed" and, consequently, this principle "gives rise
to a presumption favoring an established domicile
over a new one " (internal quotation marks omitted)).
Ultimately, we agreed that Coulter failed to meet her
burden in proving her domicile had changed in the
intervening time period between her litigation in
2012 and the filing of her action on July 27, 2015.
See Coulter, 715 F. App'x at 160-61.
Here, the District Court reasoned that Coulter's
domicile was established as Pennsylvania in 2012
and remained Pennsylvania through July 27, 2015—
as Judge Bissoon found in Coulter v. Coulter after
full litigation of the issue. See Witkowski v. Welch,
173 F.3d 192, 198-99 (3d Cir. 1999) ("Issue preclusion
forecloses relitigation in a later action 0 of an issue
of fact or law which was actually litigated and which
was necessary to the original judgment." (emphasis
added) (internal quotation marks omitted)).
Consequently, because Coulter's action in the current
case was filed on July 20, 2015, the District Court
properly recognized the preclusive effect of Judge
Bissoon's findings and dismissed for lack of subject
matter jurisdiction. See Okoro v. Bohman, 164 F.3d
1059, 1063 (7th Cir. 1999) (noting "a jurisdictional
dismissal precludes only the relitigation of the
ground of that dismissal, and thus has collateral
estoppel (issue preclusion) effect" on that ground of
dismissal (internal citations omitted)). In short, the
issue of Coulter's domicile was previously litigated
and found to be Pennsylvania from 2012 to July 27,
2015, and, therefore, she is now precluded from
re litigating that issue in the current case.
6a

Even if we were to set aside the doctrine of issue
preclusion, we cannot say that the District Court's
factual determinations were clearly erroneous. In
Coulter's motion for reconsideration, she did not
produce evidence sufficient to meet her burden of
proof and overcome the presumption of her
Pennsylvania domicile. See McCann, 458 F.3d at 286
(listing factors relevant to determining domicile and
noting the party asserting diversity jurisdiction
bears the burden of proof and can meet this burden
by proving diversity of citizenship by a
preponderance of the evidence). Rather, she leveled
accusations of judicial misconduct, suggested that a
different case in which she was previously involved
should be used for purposes of establishing domicile,
and failed to even provide an address for her alleged
New Jersey domicile. The District Court considered
all of this and was unpersuaded.
After review of the record, we cannot say that we
are left with a definite and firm conviction that a
mistake has been committed by the District Court.
See id. Accordingly, for the foregoing reasons, we will
affirm the District Court's judgment. We also grant
the Paulisicks' pending motion to supplement the
appendix, and deny Coulter's pending motion to
strike the Paulisicks' brief and appendix.
[*] This disposition is not an opinion of the full Court
and pursuant to I.O.P. 5.7 does not constitute
binding precedent.
[l] In her amended complaint, Coulter identified
Philadelphia, Pennsylvania, as her principal mailing
address since 2011. Am. Compl. at 1*2. Nevertheless,
Coulter maintained that she was a resident of New
Jersey "since June 2014." Am. Compl. f 1.
7a.

[2] Judge Bissoon took judicial notice of Coulter's
residence in Pennsylvania as noted in Coulter's prior
litigation, specifically citing Coulter v. Gale, 2^12-cv
01461, wherein Coulter averred that she was a
resident of Pennsylvania. See Coulter v. Coulter, 715
F. App'x 158, 160 (3d Cir. 2017) (not precedential).
[3] Issue preclusion ensures that "'once an issue is
actually and necessarily determined by a court of
competent jurisdiction, that determination is
conclusive in subsequent suits based on a different
cause of action involving a party to the prior
litigation.’" Burlington N. R.R. Co. v. Hyundai
Merch. Marine Co., 63 F.3d 1227, 1231 (3d Cir. 1995)
(quoting Montana v. United States, 440 U.S. 147, 153
(1979)). A court will apply issue preclusion when: "(l)
the issue sought to be precluded [is] the same as that
involved in the prior action! (2) that issue [was]
actually litigated; (3) it [was] determined by a final
and valid judgment! and (4) the determination [was]
essential to the prior judgment." Id. at 1231-32
(internal quotation marks omitted).
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF PENNSYLVANIA
JEAN COULTER, Plaintiff
Civil Action No. 2:l5-cv-Q0937
v.
GERRIVOLCHKO PAULISICK
and JOSEPH R. PAULISICK, Defendants.
MEMORANDUM OPINION
Before the court are a motion for recusal
pursuant to 28 U.S.C. § 455 (ECF No. 20), and a
motion for sanctions, special relief, and a change of
8a.

venue (ECF No. 22), filed by pro se plaintiff Jean
Coulter (“Coulter” or “plaintiff’). Also pending is a
motion to dismiss and strike this civil action filed by
defendants Gerri Volchko Paulisick and Joseph R.
Paulisick (collectively, the “Paulisicks”) (ECF No.
18). The motions are fully briefed and ripe for
disposition. Before the court can address any of
these motions, however, it must assure it has
subject-matter jurisdiction.
Factual and Procedural Background
I.
This action arose out of a seemingly simple
property dispute between neighbors. On July 20,
2015, Coulter filed the original complaint against the
Paulisicks, alleging that a fallen tree branch from
the Paulisicks’ property caused damage to Coulter’s
adjoining property in Butler, Pennsylvania in July
2013 (ECF No. 9).
The Paulisicks filed a motion to dismiss and to
strike the original complaint on November 24, 2015,
raising the issue of failure to join an indispensable
party, namely James Coulter (plaintiffs brother and
alleged co-owner of the property), against whom
Coulter filed a separate lawsuit in state court. (ECF
Nos. 5, 6). Coulter responded with an amended
complaint on December 28, 2015. (ECF No. 9). The
amended complaint re-asserts claims of negligence,
fraud, severe neglect of property, breach of implied
contract, breach of contract, civil conspiracy, and
blatant disregard for the safety of others. Id. at 2.
Coulter also attempts to assert criminal claims of
theft and conspiracy. Id.
The amended complaint states that after the tree
allegedly fell and damaged Coulter’s property, the
Paulisicks failed to inform Coulter. Id. at 7. Coulter
9a.

avers that the tree in question had been previously
trimmed on the Paulisicks’ side only. Id. at 10.
Coulter also alleges that “at some point in the first
twentyfour to thirtysix hours after Coulter learned
about the fallen tree, someone removed the jewelry
and other valuables which had belonged to Coulter’s
Mother.” Id. at 11 (emphasis original). Central to
Coulter’s complaint were the actions of her brother,
James Coulter.
In her amended complaint, Coulter alleges the
court has jurisdiction under 28 U.S.C. § 1332,
because she is a resident of New Jersey. Coulter
claims to have been a resident of New Jersey “since
June 2014,” and alleges that she “pays taxes as a
resident of New Jersey, carries Health Insurance
which limits payments to New Jersey-based
providers, [and] is licensed to drive by New Jersey.”
(ECF No. 9 at ft 1*2). Coulter’s mailing address
listed on the face of the amended complaint is located
in Philadelphia, Pennsylvania, and she admits that
has been her principal mailing address since 2011.
(ECF No. 9 at f l).
Coulter filed a motion to stay, arguing that the
federal matter should be stayed pending the outcome
of her state litigation against her brother. (ECF No.
10). The court granted the stay, with the order that
Coulter notify the court within fourteen days of the
final disposition of the litigation against her brother.
(ECF No. 13).1
On July 27, 2015, seven days after filing her
original complaint against the Paulisicks in this case,
Coulter filed a second suit in the Western District of
Pennsylvania, Civil Action No. 15-967, this time
against her brother, after learning that he was
planning to remove the original litigation from
10a.

Butler County to federal court. The court issued an
order for Coulter to show cause why jurisdiction was
proper, in which the court reviewed the legal rules
governing citizenship of an individual. (Civil Case
15-967, ECF No. 2). Coulter filed a response,
attaching numerous documents. (Civil Case 15-967,
ECF No. 3). After review of these materials, the
court found that Coulter is a Pennsylvania citizen
and dismissed the case for lack of jurisdiction. (Civil
Case 15-967, ECF No. 8). The court found that
Coulter did not produce a preponderance of evidence
sufficient to meet the burden of proof and overcome
the presumption of her Pennsylvania domicile and
did not establish an intent to remain in New Jersey.
Coulter appealed to the Third Circuit Court of
Appeals, which affirmed the district court’s finding
that it lacked subject-matter jurisdiction. Coulter v.
Coulter, 715 F. App'x 158 (3d Cir. 2017), cert, denied,
138 S. Ct. 2028, reh'g denied, 138 S. Ct. 2712 (2018).
The Third Circuit Court of Appeals held that Coulter
was a citizen of Pennsylvania on July 27, 2015, when
she filed suit against her brother. Id. at 161. The
court of appeals held that a motion for recusal filed
by Coulter against the presiding judge in Civil Case
No. 15-967 was rendered moot after the court
concluded that it lacked jurisdiction. Id.
II.

A.

Legal Standards
Jurisdiction

1 The Paulisicks filed a motion for reconsideration on July 12,
2018, which the court granted and permitted the Paulisicks to
file a motion to dismiss the amended complaint. (ECF Nos. 15,
17). The Paulisicks thereafter filed a motion to dismiss and to
strike the amended complaint. (ECF Nos. 18, 19).

11a.

Under 28 U.S.C. § 1332, diversity jurisdiction
requires complete diversity, meaning that no
plaintiff may be a citizen of the same state as any
defendant. It is a long-standing principle that “the
jurisdiction of the court depends upon the state of
things at the time of the action brought.” MolJan v.
Torrance, 9 Wheat. 537, 539 (1824). In other words,
“although challenges to subject-matter jurisdiction
may be raised at any time, whether diversity exists
is determined by the citizenship of the parties at the
time the action is filed.” Lincoln Ben. Life Co. v. AEI
Life, LLC, 800 F.3d 99, 104 n.9 (3d Cir. 2015). This
principle was reaffirmed by the United States
Supreme Court in Grupo Dataflux v. Atlas Glob.
Grp., L.P., 541 U.S. 567, 571 (2004), which
held that a party’s post-filing change in citizenship
cannot cure a lack of diversity subject-matter
jurisdiction in the original filing.
Issue Preclusion
B.
The doctrine of collateral estoppel, or issue
preclusion, “has been utilized for more than a
century.” Tice v. Bristol-Myers Squibb Co., 515 F.
Supp. 2d 580, 590 (W.D. Pa. 2007). Issue preclusion
is based upon the premise “that once an issue has
been resolved in a prior proceeding, there is no
further fact-finding function to be performed.”
Parklane Hosiery v. Shore, 439 U.S. 322, 336 (1979).
It “has the dual purpose of protecting litigants from
the burden of relitigating an identical issue with the
same party or his privy and of promoting judicial
economy, by preventing needless litigation.” Id. at
326. The doctrine “prevents parties from litigating
again the same issues when a court of competent
jurisdiction has already adjudicated the issue on its
12a.

merits, and a final judgment has been entered as to
those parties and their privies. Issue preclusion
forecloses relitigation in a later action of an issue of
fact or law which was actually litigated and which
was necessary to the original judgment.”, 173 F.3d
192, 198-99 (3d Cir. 1999) (internal citations
omitted).
Discussion
III.
Coulter contends that this court has subjectmatter jurisdiction on the basis of complete diversity
of citizenship between the parties. Coulter avers
that she has been a resident of New Jersey since
June 2014. (ECF No. 9 at f l). Coulter’s federal suit
against her brother (Civil Action No. 15-967) was
filed one week after she filed this suit against the
Paulisicks. The court (after giving Coulter a full
opportunity to litigate the issue) rejected Coulter’s
claim that she was a citizen of New Jersey. The
court found that it lacked subject-matter jurisdiction
because both parties were citizens of Pennsylvania at
the time of filing. (Civil Case 15-967, ECF No. 8).
These findings were affirmed by the Third Circuit
Court of Appeals. Coulter v. Coulter; 715 F. App'x
158 (3d Cir. 2017). Under the doctrine of issue
preclusion, this court is bound by the factual findings
and legal determinations of prior courts over a
previously litigated issue. The court is equally bound
by the determinations of the Third Circuit Court of
Appeals. Simply put: Coulter was a citizen of
Pennsylvania at the time she filed this case. Because
the Paulisicks are also citizens of Pennsylvania, the
court lacks the ability to exercise jurisdiction over
this case and it must be dismissed. All remaining
13a.

motions, including Coulter’s recusal motion against
this court, must be denied as moot. Id. at 161.
Conclusion
IV.
This court lacks subject-matter jurisdiction over
this case because it was conclusively determined that
Coulter was a Pennsylvania citizen when the case
was filed. All pending motions will be denied as
moot and the case will be marked closed.
An appropriate order follows.
November 30, 2018
BY THE COURT:
/s/ Joy Flowers Conti
Joy Flowers Conti
Chief United States District Judge
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF PENNSYLVANIA
JEAN COULTER, Plaintiff CIVIL DIVISION
No. : 2:i5-cv-00937
v.
GERRI VOLCHKO PAULISICK
and Joseph R. Paulisick, Defendants
MOTION FOR RECUSAL PURSUANT TO 28 U.S.C. $ 455
NOW COMES, Plaintiff, Jean Coulter, and files
Motion for Recusal - requesting This Court Recuse,
as appeal related to a case from this court, a case
where This Court as a Defendant, is active and is
currently pending consideration by the Supreme
Court of the United States, on Coulter's Petition for
Certiorari. (Exhibit A) Further, Recusal is required
in light of This Court's history of improper and even
14a.

illegal actions, acts which are/were intended to both
insulate a colleague from responsibility for crimes
committed from the Bench, as well as victimize
Coulter.
In support of this Request, Coulter states:
1.) On December 19, 2016, Coulter filed
Complaint for Civil Action against District Judge
Cathy Bissoon as well as nine (9) others, including
Judge Joy Flowers Conti. The Claims against Judge
Conti arise from her acts taken in Judge Conti's role
as the Chief Judge of the District Court.
2.) The Claims presented in that Civil
Complaint, concern injuries suffered by Coulter as
the result of actions by Judge Bissoon, which were
taken completely without the authority to act in the
manner undertaken by Judge Bissoon. Specifically,
on December 18, 2012, Judge Bissoon ORDERED the
Clerk of Courts for the Western District of
Pennsylvania to assign any future case filed by
Coulter, exclusively to Judge Bissoon - despite the
fact that District Judge Cathy Bissoon lacks the
authority to assign cases to herself, or indeed to any
judge:
"... IT IS FURTHER ORDERED that... the
following procedure shall be implemented by
the Clerks Office with respect to any
documents filed by Plaintiff in the future: ...
(2) Plaintiffs filings shall then be
submitted to the undersigned ...
(3) Any filings that do not run afoul of
this order, as determined bv this Court. ..."
(emphasis added) (Exhibit B)

15a.

3.) This Court learned of Judge Bissoon's
crimes, when Coulter erroneously sent the Formal
Complaint of Judicial Misconduct against Judge
Bissoon to the attention of This Court (as Chief
Judge of the District), when Coulter should have sent
the Complaint of Judicial Misconduct to the Chief
Judge of the Circuit Court.
Rather than both forwarding Coulter's Formal
Complaint of Judicial Misconduct by Judge Bissoon
to the Chief of the Circuit Court, and reporting Judge
Bissoon's criminal acts to the appropriate authorities
in Federal Law Enforcement, This Court instead
"buried" Coulter's Formal Complaint of Judicial
Misconduct by Judge Bissoon. That Complaint
stated :
"... (2.) Even more egregious, is the fact that
Judge Bissoon has, on December 18, 2012
Order, filed in Civil Action Nos. 12-1050 (Doc.
33) and 12-1241 (Doc. 20), issuing an ORDER
to Court Personnel, requiring them to "assign"
each and every case filed by Pro Se Plaintiff
Coulter exclusively to Judge Bissoon for
review without permitting any other Judge to
even see the case! (Attorney Jones acted as
Counsel for Defendants in each of the cases
mentioned in Judge Bissoon's Order of
December 18, 2012 - and, Attorney Jones
criminally released the Adoption Record,
which formed the exclusive basis of Judge
Bissoon's Orders dismissing Coulter's
Complaints in each and every one of the cases
filed by Coulter prior to December 18, 2012!
"the following procedure shall be
implemented by the Clerk’s Office with
respect to any documents filed by
16a.

Plaintiff in the future'- (l) The Clerk’s
Office shall file any documents
submitted by Plaintiff in due course.
Plaintiff shall remain responsible for
any applicable filing fees. (2) Plaintiffs
filings shall then be submitted to the
undersigned for screening. This Court
will strike any filings that are in
violation of this order." (emphasis in
original, emphasis added)
This "Order" is clearly forbidden by
Federal Court Practices and Procedures
intended to provide for Due Process through a
"random" assignment of cases • as Judge
Bissoon's Order is intended to (and indeed
clearly does) violate Due Process and
constitutes a "Color of Law" violation of
Coulter's Rights - a Federal Felony (where the
Court Personnel are possibly involuntary co­
conspirators)!
Through the issuance of an Order
addressed to the Court Personnel employed in
the records department, Judge Bissoon
"recruited" her coconspirators through
coercion! ..."
And, the Civil Complaint which names Judge Conti
as a Defendant states :
Judge Joy Flowers Conti is one (l) of
"b.)
the two (2) Judges from the District Court,
who is being sued for her actions. Conti was
serving as Chief Judge of the District, when
she was erroneously sent the Complaint of
Judicial Misconduct or Disability, which
described Judge Bissoon's criminal activities
which injured Coulter. District Judge Conti
17a.

chose to pretend that she had never received
the Complaint, and rather then reporting the
crime which was proven by the Complaint of
Judicial Misconduct, Conti chose instead to
conceal the felony by District Court Judge
Bissoon, rather than report the crime."
" 19.) Defendant JOY FLOWERS CONTI also
has liability for the damages suffered by
Coulter as Judge Conti was erroneously sent
the Complaint of Judicial Misconduct against
Judge Bissoon ■ however, Defendant Conti
chose to fail to take steps to forward the
Complaint of Misconduct to the appropriate
individuals in the Circuit Court. Thus, Judge
Conti also joined into the Criminal Conspiracy
against Coulter and must also share the
consequences of the crimes committed directly
by Defendant Bissoon.
It is therefore obvious that Defendant
Conti's actions not merely abrogate her
immunity from civil actions, but Defendant
Conti's acts, it is believed, constitute the
commission ofmultiple Federal and State
Crimes, including 18 US. Code Sections 241
and 242, as Defendant Conti is similarly
required to report the Criminal Actions of
Defendant Bissoon, but failed to do so, as
required by the Administrative duties required
by Canon 3B (5)."
(Exhibit C, page 20a., 52a. — 53a.)
4.) Case Law explains that Recusal is
required any time that a "reasonable person under
18a.

the circumstances would doubt the judge's
impartiality" as explained in Jones v. Pittsburgh
Nat. Corn.. 899 F. 2d 1350 - Court of Appeals, 3rd
Circuit 1990 :
"
We turn next to a consideration of the
merits of the motion to recuse on the basis of
28 U.S.C. § 455(a) which reads in pertinent
part:
Any justice, judge, or magistrate of the
United States shall disqualify himself in
any proceeding in which his
impartiality might reasonably be
questioned.
Under this section a judge must consider
whether a reasonable person knowing all the
circumstances would harbor doubts concerning
the judge's impartiality. United States v.
Dalfonso, 707F.2d 757, 760 (3d Cir.1983)."
Although Coulter has been unable to discover any
Case Law directly discussing criminal actions by the
subject judge, it is believed that there is no more
blatant example of "circumstances" which would
convince a "reasonable person" that the judge's
impartiality is in doubt, than a situation where the
Judge has willfully committed a crime which
victimizes a Party - particularly when that crime
was committed in connection with the Judge's
Official (albeit Administrative) Duties - as is the
situation under consideration at this time!
5.) It is noteworthy that Counsel for
Defendants is now obligated to report the crimes by
both District Judge Cathy Bissoon, and This Court,
pursuant to the Code of Conduct applicable to
Attorneys in Pennsylvania "204 PA Code,
19a.

§ 81.4. Rules of Professional Conduct, Rule 8.3.
Reporting Professional Misconduct.", which states :
"(b) A lawyer who knows that a judge has
committed a violation of applicable rules of
judicial conduct that raises a substantial
question as to the judge’s fitness for office
shall inform the appropriate authority."
While the Rules do not specify what constitutes an
"appropriate authority", it seems readily evident that
the only "appropriate authority" for reporting known
criminal acts, would be reporting to a member of Law
Enforcement which the attorney has reason to
believe has the authority to act upon that
information, and a willingness to do so.
WHEREFORE, Recusal by This Court is
necessary as the result of the obvious bias which has
previously been displayed by This Court's refusal to
comply with Federal Criminal Statutes as well as the
Code of Conduct for Federal Judges - particularly as
This Court's failure to comply with those restrictions
on The Court's actions (both inside and outside of the
courtroom), constitute the commission of crimes
which are/were intended to victimize Coulter —
including the Federal Crime of Misprision of a
Felony (18 U.S.C. Section 4, a Felony) and
likely (willing) involvement in another Federal
Felony, Color of Law Conspiracy Against Rights ((18
U.S.C. Section 242)
Further, Recusal is required as a "reasonable
person" with knowledge of This Court's obligations of
restitution to Coulter - which results from This
Court's willful defiance of This Court's obligations
arising under the Code of Conduct — (specifically,
This Court's obligation to report District Judge
20a.

Cathy Bissoon's crimes (Exhibit A)), most certainly
would mean that every reasonable person would
most certainly doubt This Court's willingness and
ability to rule in an unbiased manner in any case
which is brought before This Court!
Respectfully Submitted
Jean Coulter, Plaintiff
APPEAL,CLOSED,SJE
U.S. District Court
Western District of Pennsylvania (Pittsburgh)
CIVIL DOCKET FOR CASE #: 2:l5-cv-00289-CB
COULTER v. LINDSAY et al
Date Filed: 03/02/2015
Assigned to: Judge Cathy Bissoon
Date Terminated: 03/06/2015
Case in other court: Third Circuit, 15-02144
Jury Demand: Plaintiff
Cause: 28:1332 Diversity-Other Contract
Nature of Suit: 190 Contract: Other
Jurisdiction: Diversity
Plaintiff
JEAN COULTER represented by JEAN COULTER
Mailing Address:
260 Pullman Square
PMB 172
Butler, PA 16001
PRO SE
V.
Defendant
ALEXANDER H. LINDSAY, JR.
21a.

Defendant
LINDSAY LAW FIRM
Defendant
JOSEPH VICTOR CHARLTON
and
Defendant
PATRICIA LINDSAY
Date Filed
# Docket Text___________________
03/02/2015 1
COMPLAINT against JOSEPH
VICTOR CHARLTON, ALEXANDER
H. LINDSAY, JR,
PATRICIA
LINDSAY, LINDSAY LAW FIRM
(Filing fee, including Administrative
fee, $400, receipt number
24668030637), filed by JEAN
COULTER. (Attachments:
#1
Civil Cover Sheet, # 2 Receipt) (jsp)
(Entered: 03/03/2015)
03/02/2015
Summons Issued as to JOSEPH
VICTOR CHARLTON, ALEXANDER
H. LINDSAY, JR, PATRICIA
LINDSAY, LINDSAY LAW FIRM.
(jsp) (Entered: 03/03/2015)
03/06/2015
2
ORDER, Plaintiffs Complaint
(Doc. 1) is DISMISSED WITH
PREJUDICE, pursuant to this
Court's December 18, 2012 Order,
filed in Civil Action Nos. 12-1050
(Doc. 33) and 12*1241 (Doc. 20),
designating Plaintiff, Jean
Coulter, as a vexatious litigant.
Signed by Judge Cathy Bissoon
on 3/6/2015. (sje) (Entered:
03/06/2015)
22a.

03/06/2015

03/24/2015
03/24/2015

03/25/2015

04/02/2015

04/02/2015

3 JUDGMENT ORDER. Consistent
with the Order filed
contemporaneously herewith, FINAL
JUDGMENT hereby is entered
pursuant to Rule 58 of the Federal
Rules of Civil Procedure. This case
has been marked closed. Signed by
Judge Cathy Bissoon on 3/6/2015. (sje)
(Entered: 03/06/2015)
4 MOTION for Reconsideration re 2
Order, by JEAN COULTER, (jsp)
(Entered: 03/24/2015)
5 Addendum by JEAN COULTER
re 4 Motion for Reconsideration.
(Attachment: # 1 Exhibit in Support)
(jsp) (Entered:
03/25/2015)
6 ORDER denying 4 Motion for
Reconsideration, for the reasons stated
in the Court's March 6, 2015 Order
(Doc. 2). Signed by Judge Cathy
Bissoon on 3/25/2015. (sje) [Staff notes:
A copy of this Order, and a second copy
of the Court's March 6, 2015 Order
(Doc. 2) have been sent, via FirstClass U.S. Mail, to Plaintiff at her
address of record.] (Entered:
03/25/2015)
7 EMERGENCY MOTION for
Recusal, MOTION for Special Relief by
JEAN COULTER, (jsp) (Entered:
04/02/2015)
8 ORDER denying 7 Motion for
Recusal and Motion for Special Relief.
Signed by Judge Cathy Bissoon on
23a.

04/02/2015
04/07/2015
4/7/2015.

05/04/2015

4/2/2015. Text-only entry! no PDF
document will issue. This text-only
entry constitutes the Order of the
Court or Notice on the matter, (sje)
[Staff notes: A copy of this Text Order
has been sent, via First Class U.S.
Mail, to Plaintiff at her address of
record.] (Entered: 04/02/2015)
9
MOTION to Amend the Findings
Pursuant to Rule 52 by JEAN
COULTER, (jsp) (Entered: 04/03/2015)
10 ORDER denying 9 Motion to
Amend the Findings Pursuant to Rule
52. Signed by Judge Cathy Bissoon on
Text-only entry! no PDF document will
issue. This text-only entry constitutes
the Order of the Court or Notice on the
matter, (sje) [Staff notes: A copy of this
Text Order has been sent, via First
Class U.S. Mail, to Plaintiff at her
address of record.] (Entered:
04/07/2015)
11 NOTICE OF APPEAL as to 10
Order on Motion to Amend/Correct, by
JEAN COULTER. Filing fee $505.
Motion for IFP N/A. Certificate of
Appealability N/A. Court Reporter(s):
None. The Clerk's Office hereby
certifies the record and the docket sheet
available through ECF to be the
certified list in lieu of the record and/or
the certified copy of the docket entries.
The Transcript Purchase Order form
will NOT be mailed to the parties. The
form is available on the Court's internet
24a.

site. (Attachment: # 1 Receipt) (jsp)
(Entered.: 05/04/2015)
260 Pullman Square, PMB 172
Butler, PA 16001
April 12, 2015
Chief Judge of the District Court Joyce Flowers
Conti
RE: District Court Judge Cathy Bissoon
Dear Judge Conti;
I am submitting an official complaint against
Judge Bissoon, for actions which I believe clearly
violate the Canons of Judicial Conduct and possibly
constitute the commission of a number of Crimes
(both Felonies and Misdemeanors) by Judge Bissoon.
As evidence of Judge Bissoon’s clearly improper
actions, I have included copies of filings that I
recently made with the Federal Court. As you will
see, the documents explain that in what Judge
Bissoon have determined are “related” cases, the
filing of an Adoption Record in the Federal Court
constitutes the violation of Pennsylvania Criminal
Statutes by the Defendants’ Counsel in those cases.
And, because this release of Sealed Adoption Records
was committed by “State Actors”, this violation of our
Civil Rights, specifically the Right to Privacy, also
involves the commission of Color of Law Civil Rights
Violations by Defendants (and Counsel) in those
other actions.
I asked Judge Bissoon to reconsider her decision
to unilaterally dismiss my current case, based on its
supposed “related-ness” to those other cases — and I
also asked Judge Bissoon to “re-seal” the Adoption
25a.

Record which she previously, improperly utilized as
the “Public Record” against me. At that time, I
explained that the Record was sealed, and therefore
not properly considered part of the “Public Record” of
any case, but the Judge ignored this information and
used it anyway. I realize that it might be too late to
address that set of improper actions by Judge
Bissoon, but Judge Bissoon’s recent refusal to now
seal the Adoption Record which she improperly
permitted to be released at that time, appears to
directly involve Judge Bissoon in the cover-up of the
crimes in the earlier cases!
By Pennsylvania Statute, 23 Pa. Code Section
2910, it is a crime for any attorney or any court
employee, to release the clearly confidential
“information relating to an Adoption '
§ 2910. Penalty for unauthorized disclosure.
Any officer or employee of the court, other
than a judge thereof, the Department of
Health, the Department of Public Welfare or
any agency who willfully discloses impounded
or otherwise confidential information relating
to an adoption, other than as expressly
authorized and provided in this chapter,
commits a misdemeanor of the third degree.
And, Pennsylvania Statutes clearly define exactly
who may legitimately release those Records — and
Judge Bissoon is not qualified in any manner to
authorize the release of Pennsylvania Adoption
Records.
The specific Adoption Record which was released
by Defendants represented by the firm of
JonesPassodelis, was the clearly-labeled Judge’s
Decision in an Adoption Proceeding. As I mentioned,
over my clear protests, the same document was
26a.

improperly classified as the “Public Record” of a
“related” case and was also improperly utilized by
Judge Bissoon, to determine that the criminal
actions committed by my attorneys (for which I was
the victim) in that matter, resulted in me receiving
“all the Process that [I] was Due”.
I requested in my Petition for Special Relief, for
the Adoption Record to be “re*sealed” by Judge
Bissoon, the same Judge who improperly permitted it
to be released at the time of the earlier cases — and
Judge Bissoon flatly refused that request without
explanation. Judge Bissoon’s entirely improper
release of the Adoption Record at that time, was, I
believe, possibly done without knowledge of the
crime that she was facilitating. However, it is now
apparent that Judge Bissoon is now acting for one
purpose - to permit the original crimes by attorneys
from JonesPassodelis (and their clients), to remain
protected from investigation and prosecution by Law
Enforcement! Judge Bissoon’s current decisions to
permit sealed Adoption Records to remain “un­
sealed” and open to Public Inspection, serves no
legitimate purpose . Judge Bissoon’s actions, I
believe, were intended solely to discourage me from
reporting the Criminal Actions by attorneys from the
firm of JonesPassodelis (and their clients) to Federal
Law Enforcement. Or perhaps Judge Bissoon was/is
attempting to discourage the filing of charges related
to the Color of Law Civil Rights Violations against
the “State Actors” in those earlier cases. This would
be accomplished when Law Enforcement considers
Judge Bissoon’s decision to permit the Adoption
Record to remain in the “Public Record” as a judicial
determination that no Federal Criminal Violation
had occurred — when a crime clearly has occurred.
27a.

In addition to the Federal Civil Rights Crimes:
Title 18, U.S.C., Section 242 Deprivation of Rights
Under Color of Law and Title 18, U.S.C., Section 241
Conspiracy Against Rights , I believe that Judge
Bissoon is also implicated in :
a. 18 PA Code § 5101. Obstructing
administration of law or other governmental
function. - a 2nd degree misdemeanor
b. 18 PA Code § 5107. Aiding consummation
of crime.- - a 2nd degree misdemeanor
c. 18 U.S. Code § 1512 - Tampering with a
witness, victim, or an informant
and d. 18 U.S. Code § 1513 - Retaliating against a
witness, victim, or an informant.
I have come to understand that the Judges in all
of “our” Courts see their primary role as
maintenance of the Status Quo. However, I believe
that Judge Bissoon’s involvement in crimes
committed by defendants and their lawyers in those
earlier cases, by “concealing” the fact that they did
commit a crime, implicates Judge Bissoon in those
crimes as well - and requires that Judge Bissoon be
investigated, through both the Judicial Branch as
well as the Federal Criminal Justice System. So, I
am relying on the Federal Court to assure that Judge
Bissoon is “brought to Justice”.
If you have any questions about this matter, I
can be reached at 412-616-9505. The mailing
address above, will eventually forward mail to me,
but often it takes up to a month before enough mail
accumulates before it is forwarded. So, if you have
sent anything time-sensitive, please leave a message
to that effect at my phone number, and I will see that
your mail reaches me in a more timely manner (or I
28a.

may be able to provide you with an address where I
will more quickly be able to receive the mail directly).
Of course, I am also available for contact by
members of the Federal Justice Law Enforcement, to
aid in their investigation of Judge Bissoon’s criminal
actions.
Sincerely,
Jean Coulter

29a.

